No. 19-222
================================================================================================================

In The

Supreme Court of the United States
-----------------------------------------------------------------PAUL ANTHONY VALDERAS,
Petitioner,
v.
CITY OF LUBBOCK, TEXAS, et al.,
Respondents.
-----------------------------------------------------------------On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit
-----------------------------------------------------------------RESPONDENT BILLY MITCHELL’S
BRIEF IN OPPOSITION
-----------------------------------------------------------------DAVID KERBY
(Counsel of Record)
CAMIE WADE
KERBY & WADE, P.C.
P.O. Box 65150
Lubbock, Texas 79464
Telephone: (806) 793-7600
Facsimile: (806) 793-6882
Email: dkerby@ttlawyers.com
Email: cwade@ttlawyers.com
Counsel for Respondent
Billy Mitchell, in his
Individual Capacity
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
QUESTION PRESENTED FOR REVIEW
Is a court required to deny a summary judgment
based on qualified immunity where multiple officers
were on scene and not all officers utilized force?

ii
LIST OF PARTIES TO THE
PROCEEDING IN THE COURT WHOSE
JUDGMENT IS UNDER REVIEW
Respondent agrees with Petitioner’s List of Parties
except that the City of Lubbock (represented by Jeff
Hartsell) was not a party to the interlocutory appeal to
the Fifth Circuit which is the basis of Petitioner’s Petition for Writ.

iii
TABLE OF CONTENTS
Page
Question Presented for Review ...........................

i

List of Parties to the Proceeding in the Court
Whose Judgment is Under Review ..................

ii

Table of Contents .................................................

iii

Table of Authorities .............................................

iv

Citations of the Official Reports of the Opinions
Below ................................................................

1

Statement of the Case .........................................

1

A.

Facts ...........................................................

1

B.

Misstatements by Petitioner .......................

9

Summary of the Argument .................................. 13
Argument ............................................................. 14
Conclusion............................................................ 21

iv
TABLE OF AUTHORITIES
Page
FEDERAL CASES
A.D. v. California Hwy. Patrol, No. C 07-5483 SI,
2009 WL 733872 (N.D.Cal. March 17, 2009) ..........16
Anderson v. Creighton, 483 U.S. 635 (1987) ...............14
Clem v. Cty. of Fairfax, 150 F.Supp.2d 888
(E.D.Va. 2001)..........................................................16
Diaz v. Salazar, 924 F.Supp. 1088 (D.N.M. 1996) ......... 16
Graham v. Connor, 490 U.S. 386 (1989) ............. passim
Harlow v. Fitzgerald, 457 U.S. 800 (1982) .................14
Kelley v. O’Malley, 328 F.Supp.3d 447 (W.D.Pa.
2018) ........................................................................17
Kisela v. Hughes, 138 S.Ct. 1148, 200 L.Ed.2d
___ (2018).................................................................19
Remillard v. City of Egg Harbor City, 424
F.Supp.2d 766 (D.N.J. 2006) ....................................17
Santana v. City of Hartford, 283 F.Supp.2d 720
(D.Conn. 2003) .........................................................17
Young v. District of Columbia, 322 F.Supp.3d 26
(D.D.C. 2018) ...........................................................16

1
CITATIONS OF THE OFFICIAL
REPORTS OF THE OPINIONS BELOW
On August 26, 2019, following the filing of Petitioner’s Petition for Writ, notice was sent by the Fifth
Circuit that the opinion below was reissued as published. It is cited at 774 Fed.Appx. 173 (5th Cir. 2019).
------------------------------------------------------------------

STATEMENT OF THE CASE
A. Facts
Petitioner Valderas (“Petitioner”) is a known violent criminal and member of the West Texas Tango
Blast gang. Record 301. Plaintiff has been arrested on
multiple occasions and his previous encounters with
law enforcement include arrests for felony theft and
felony possession. Record 96-99, 127-128, 141-142, 286297, 301. Petitioner has previously been incarcerated
in state prison and, due to his prior felony convictions,
it is illegal for him to possess a firearm. Record 286297, 348.
In December of 2016, Petitioner violated his parole
by failing to report and a warrant was issued for his
arrest. Record 309, 315. Petitioner was fully aware of
the warrant and was actively avoiding law enforcement. Record 309, 315, 331. On December 27, 2016, a
detective with the City of Lubbock Police Department
was assisting narcotics on a controlled purchase at a
residence in Lubbock when Petitioner was observed
pulling up to the designated location and entering the
residence. Record 263-271, 316-317. Petitioner then

2
left and was followed by law enforcement to a burger
restaurant where he was observed making contact
with multiple subjects that was consistent with street
level narcotics trafficking. Record 263-271. As Petitioner left the burger restaurant, law enforcement decided to initiate a traffic stop. Record 263-271.
Petitioner failed to signal a lane change and the officer
following him initiated the stop. Record 263-271.
Petitioner immediately began to evade the officer,
traveling at high rates of speed through a residential
neighborhood. Record 263-271, 304-314. The officer’s
in-car camera demonstrated Petitioner’s dangerous
behavior as he careened through the neighborhood,
placing the public in danger. Record 272. During the
pursuit, Petitioner ran a stop sign and jumped a curb.
Two children can be seen in the officer’s video crossing the street with their bikes as Petitioner careened
through the neighborhood. Record 272. The officer canceled the pursuit for public safety. Record 263-264. Petitioner’s vehicle was later found abandoned in an alley
near Grinnell Street and Indiana Avenue, just across
the street from the residence where the January 26,
2017, incident would take place. Record 263-271, 304312. Methamphetamine was located in the vehicle.
Record 263-271, 304-312. Petitioner admitted in his
deposition he was the individual who fled from the officer and testified he was fleeing because he knew he
had a warrant and did not want to be arrested. Record
315.
Respondent Officer Billy Mitchell (“Officer Mitchell”) is a detective for the City of Lubbock Police

3
Department. Record 96-99. Officer Mitchell has served
with the Lubbock Police Department since 2010 and
previously served with the Houston Police Department
from 2007 to 2009. Record 96-99. Officer Mitchell is,
and was at all relevant times, a sworn, licensed and
certified peace officer according to the mandates of the
Texas Commission on Law Enforcement. Record 96-99.
On January 26, 2017, Officer Mitchell was assigned to
the Lubbock Police Special Operations Gang Unit
(“Gang Unit”). Record 96-99. Officer Mitchell’s duties
included violent criminal gang member documentation
and apprehension, narcotics-related investigations, illegal firearm possession investigations, surveillance
and tactical operations. Record 96-99. During his career, Officer Mitchell has been involved in multiple operations in which criminals had to be taken into
custody and he has been trained on the use of force
continuum by the City of Lubbock Police Department.
Record 96-99.
As part of the “Gang Unit,” Officer Mitchell became familiar with Petitioner. Record 96-99. Officer
Mitchell knew Petitioner was a known violent criminal
and a known gang member who had previously used
threats and violence. Record 96-99. Officer Mitchell
knew Petitioner was known to possess firearms and
Officer Mitchell was aware of the high speed chase
with Petitioner that occurred in December 2016. Record 96-99, 267. After the pursuit, Officer Mitchell was
assigned to take photographs of the abandoned vehicle
and he had become familiar with the area around
where the abandoned vehicle was located. Record

4
96-99, 267. In addition to photographing the abandoned vehicle, he had also previously assisted the
“Gang Unit” with locating a wanted fugitive across the
street from the abandoned vehicle, all within close
proximity to the house where Petitioner was shot on
January 26, 2017. Record 96-99.
On January 26, 2017, Officer Mitchell was assigned to assist the “Gang Unit” with locating and apprehending Petitioner. Record 96-99. On that date, the
“Gang Unit” was briefed regarding Petitioner and his
violent past. Record 96-99, 105-183. The unit was advised Petitioner was a known violent criminal and a
known member of a gang who had an outstanding
felony warrant for his arrest. Record 96-99, 105-183.
Petitioner was considered armed and dangerous. Record 96-99, 105-183, 260-272. At the time he was being
investigated, Petitioner was unemployed and was actively selling illegal drugs. Record 297-301.
On the evening of January 26, 2017, in furtherance of the plan to locate and apprehend Petitioner,
law enforcement was able to locate and visually confirm his location at a convenience store at the intersection of the Clovis Highway and North Indiana Avenue.
Record 96-99, 106-107, 127-128, 141-142, 319-320. Petitioner was observed exiting the store and entering a
vehicle driven by an unknown female. Record 96-99,
127-128, 141-142, 319-320. The vehicle proceeded to
the 3300 Block of Grinnell Street and dropped Petitioner off at a residence. Record 96-99, 127-128, 141142, 319-320. The surveillance team then set up to
watch Petitioner and prepare to take him into custody,

5
if possible. Record 96-99, 127-128, 141-142. Among the
officers on duty, a plan was formulated to have a team
of three officers ride in one vehicle to approach and apprehend Petitioner before he became mobile due to his
previous history of evading and endangering the public. Record 96-99, 127-128, 141-142. The team included
Officer Mitchell, Sergeant Don Billingsley, and Investigator Daniel Merritt. Record 96-99, 127-128, 141-142.
Sergeant Billingsley has been a police officer with the
City of Lubbock Police Department for 15 years. Prior
to becoming a police officer, Sergeant Billingsley was a
paramedic and served four years in the United States
Marine Corps. Sergeant Billingsley is a member of the
Lubbock SWAT Team. Record 438-439. Investigator
Daniel Merritt has been a police officer with the City
of Lubbock Police Department for six years and is
SWAT trained. Record 611, 616.
In accordance with the agreed upon plan, Sergeant Billingsley drove the vehicle, Officer Mitchell sat
in the front passenger seat and Investigator Merritt
sat directly behind Officer Mitchell. Record 96-99, 127128, 141-142. All three officers were wearing their department issued tactical vests with “POLICE” in bold,
white reflective letters on the upper front portion and
had their badges clipped to their vests. Record 96-99,
127-128, 141-142, 256.
The three officers set up within the vicinity of the
residence awaiting confirmation that Petitioner was outside. Record 96-99, 127-128, 141-142. As they waited, a
blue car with one driver and one passenger approached
the residence and Petitioner exited the house. Record

6
96-99, 127-128, 141-142. This information was relayed
to the three awaiting officers and they drove into position. Record 96-99, 127-128, 141-142. Sergeant Billingsley drove toward the residence, approaching from
the east. Record 96-99, 127-128, 141-142. The three officers observed the blue car parked on the north side of
Grinnell Street facing east with Petitioner leaning into
the right front passenger side window. Record 96-99,
127-128, 141-142, 274. As the officers approached, Officer Mitchell slightly opened his door, activating the
dome light and preparing for a head start in the event
Petitioner attempted to flee back into the house. Record 96-99. As the officers approached, Petitioner stood
upright, looked at the officers and raised the right side
of his shirt with his right hand exposing a gun. Record
96-99, 127-128, 141-142, 274, 373-376.
The officers all observed Petitioner pull the gun
from his waistband and turn his body slightly toward
them as Investigator Merritt yelled out, “Gun!” Record
96-99, 127-128, 141-142, 274, 373-374, 491, 615. Sergeant Billingsley stopped the vehicle and Officer
Mitchell was the first to exit. Record 96-99, 127-128,
141-142, 274, 491, 615. Officer Mitchell drew his
weapon and yelled, “Police!” as he moved to the right of
the vehicle so the occupants of the blue car would not
be in the line of fire. Record 96-99, 274. Officer Mitchell
then fired his pistol multiple times in quick succession
at Petitioner, who he believed was still in control of the
weapon and posed an imminent and serious threat of
death or serious bodily injury to himself and the other
officers. Record 96-99, 274.

7
Officer Mitchell observed Petitioner crouch down
and fall to the ground. Record 96-99, 274. Sergeant
Billingsley and Officer Mitchell then approached the
passenger side of the blue car. Record 96-99, 127-128,
141-142, 274, 457, 625. Investigator Merritt held cover
on the passengers in the blue car as Officer Mitchell
held cover on Petitioner while the occupants were removed from the car. Record 96-99, 127-128, 141-142,
274, 628. After the occupants were safely removed and
security was established around Petitioner, the officers
began to administer first aid to him. Record 96-99, 127128, 141-142, 274.
A neighboring residence had a security camera activated that captured audio and video of the occurrence
corroborating the testimony of all of the officers. Record 274. As the officers’ vehicle came to a stop, someone
from the vehicle can be heard yelling, “He’s got a gun!”
Record 274. This is followed by Officer Mitchell yelling,
“Police!” and Petitioner turning his body toward the officers and pulling his weapon from his waistband. Record 274. Officer Mitchell can then be seen firing his
weapon at Petitioner. Record 274. The video clearly depicts the sequence of events. Record 274.
Investigator Merritt testified he was expecting a
gunfight when Petitioner turned and pulled the gun
from his waistband. Record 127-128, 274, 617, 619,
627. He feared for his life when the gun was pulled and
he exited the vehicle while drawing his own weapon.
Record 127-128, 274, 617, 619, 627. When he exited, Officer Mitchell was in front of him and was blocking his
view of Petitioner. Record 127-128, 274, 617, 619, 627.

8
Similarly, Sergeant Billingsley testified he feared for
his life when Petitioner drew his gun and considered
discharging his firearm from inside the vehicle. Record
141-142, 492-496. However, he decided to exit the vehicle so he would not be a stationary target. Record
141-142, 492-496. While exiting, Sergeant Billingsley
struggled with the door and did not get out as quickly
as Officer Mitchell. Record 141-142, 492-496, 507. Both
Sergeant Billingsley and Investigator Merritt testified
as to the circumstances that led to Officer Mitchell exiting the vehicle first and thus, being the first to confront Petitioner and his drawn weapon. Additionally,
each testified they feared for their lives during the
encounter with Petitioner and none of them saw Petitioner discard the weapon prior to the shots being
fired. ROA.127-128, 141-142.
Petitioner acknowledged that, as the officers’ vehicle approached him, the passenger in the blue car told
him it was police. Knowing that, he continued to remove the gun from his waistband in front of the police
officers. Record 373-374. Petitioner himself testified he
pulled the weapon in order to let the vehicle’s occupants know he was armed. Record 389-392. There is no
question Petitioner knew the vehicle was occupied by
police officers as he pulled his weapon. Record 373-376,
378. Petitioner testified he does not believe he would
have been shot if he had not pulled the gun from his
waistband. Record 182-183.
Despite the video evidence, Plaintiff alleges that
when he learned the vehicle was occupied by police officers, he threw his weapon in the car, put his hands up

9
and turned to start running toward Indiana Avenue.
Record 322-323, 374. Plaintiff testified he took a stepand-a-half when the first bullet grazed him and he was
shot “about one to two steps away from the vehicle.”
Record 322-323, 374, 400. However, the video clearly
shows Petitioner pulling the weapon and remaining
close to the blue car. Record 274. Despite knowing
there were officers in the approaching vehicle and after
showing them his weapon, Petitioner never put his
hands up and never turned to run as he has now alleged. Record 274.
B. Misstatements by Petitioner
Throughout the history of the case, Petitioner has
plead various assertions that are unsupported by any
admissible evidence before the Courts. At the trial
court level and at the Fifth Circuit, Respondent repeatedly cited to the evidence in an effort to point out the
various misstatements and what the evidence actually
shows. Below are the misstatements and citations to
the evidence as far as any misstatements in Petitioner’s Petition for Writ:
Plaintiff attempts to portray Officer Mitchell’s version of the events following the shooting as containing
contradictions. However, Officer Mitchell’s statements
regarding his use of force have been consistent throughout. He stated he saw Petitioner remove the gun from
his waistband and display the weapon. Record 104. He
also stated he did not see Petitioner discard the
weapon. Record 98. He stated that, following his firing

10
of his weapon, he held cover on Petitioner and then
helped administer first aid. Record 98. He also stated
that, following the shooting, he saw a gun on the
ground near Petitioner. Record 104. This is consistent
with Investigator Merritt’s testimony that after the
shooting, he removed Petitioner’s gun from the blue car
and placed it on the ground. Record 628-629. The location of the gun is noted in another officer’s report and
can be seen in the crime scene photographs. Record
145, 191, 218, 223. Thus, Petitioner’s attempts to portray Officer Mitchell’s testimony as conflicting are
thwarted by the evidence before the Court.
Petitioner also continuously alleges he was coerced by confidential informants to take possession of
the gun three days prior to the incident. He has wholly
failed to offer any admissible evidence supporting this
contention. Instead, his own testimony shows he took
possession of the gun from individuals in exchange for
their smoking a portion of his methamphetamine. Record 350. He further testified he later acquired ammunition for the gun and carried it with him after leaving
the motel at which he was staying. Record 358-359.
Even if the claim was taken as true, Petitioner fails to
state why he continued to possess the firearm for three
days, bought ammunition for it and knowingly violated
the law that bars a felon from possessing a firearm.
Petitioner argues again and again certain things
that Sergeant Billingsley saw or did that are simply
false. He asserts that Sergeant Billingsley saw exactly
what Officer Mitchell saw and did not use lethal force
because it was not reasonable to do so. This is in

11
contradiction to Sergeant Billingsley’s testimony that
he did not have the same view as Officer Mitchell. He
testified he struggled with his door while getting out of
the vehicle and did not exit as quickly as Officer Mitchell. Record 141-142, 492-496, 507. When asked why he
did not shoot, these are the reasons he gave. Record
141-142, 492-496, 507. He testified he considered discharging his firearm while in the vehicle but decided
to exit so he could “make himself small” and so he
would not be a stationary target. Record 493. He further testified he believed Officer Mitchell’s use of force
was in self defense. Record 500.
Petitioner alleges the Fifth Circuit made an improper inference that Sergeant Billingsley did not
shoot because he did not have a line-of-sight to fire and
that such inference was not supported by the evidence.
Petitioner claims, “If both identically trained officers
observed the same ‘display’ but had two separate responses and both are objectively reasonable then Graham is a fallacy.” This completely sidesteps the fact
that the evidence shows Sergeant Billingsley and Officer Mitchell did NOT see the same displays. Petitioner’s
assertion is inaccurate. The admissible evidence in this
case, relied upon by the Fifth Circuit, is that Sergeant
Billingsley did not have the same line-of-sight to fire
as Officer Mitchell did. He testified he heard the first
two gun shots AS he was exiting the vehicle and that
he lost his line-of-sight as he was exiting. Record 453455, 507. Thus, he was not fully out of the vehicle and
stationary as Officer Mitchell was. Additionally, Sergeant
Billingsley testified Petitioner was already collapsing

12
by the time he was able to exit. Record 455. Thus, Petitioner’s assertion that Sergeant Billingsley and Officer
Mitchell were met with identical circumstances is
wrong.
Petitioner asserts at different times that Sergeant
Billingsley could not recall what he had seen. Petitioner asserts, “we know what Billingsley saw because
Officer Merritt’s testimony confirmed that [Petitioner]
threw the gun in the car.” The fact that the gun was
found in the car after the shooting does not indicate
any of the officers on scene saw Petitioner discard it.
The officers have all stated they did NOT see Petitioner discard the weapon. Record 98, 104, 454, 615.
Thus, Petitioner’s assertion that Sergeant Billingsley
knew Petitioner was no longer armed and the threat
had subsided, upon which Petitioner bases his entire
argument, is unfounded and unsupported by the evidence. There is no evidence before the Court that Sergeant Billingsley saw Petitioner discard the weapon
into the car or that he perceived the threat to be over.
Petitioner argues the only reason Sergeant Billingsley did not fire his weapon was because he saw
Petitioner discard the weapon. Sergeant Billingsley
testified unequivocally that he did not see Petitioner
discard the weapon into the vehicle. Record 452-455.
Sergeant Billingsley also testified he feared for his life
and was expecting a gun fight. Record 492-496. Petitioner then argues the only reason Sergeant Billingsley did not fire his weapon was because Petitioner was
fleeing. This is contradicted by the video evidence and
by Petitioner’s own testimony. Record 322-323, 374,

13
400. The video evidence shows it is unclear what Petitioner was doing with his hands after he had drawn his
weapon and Plaintiff testified he was not actually fleeing at the time he was shot. Record 274, 322-323, 374,
400.
Petitioner asserts Officer Mitchell’s use of lethal
force was unreasonable because he admitted he saw
Petitioner discard the gun. This is inaccurate and unsupported by any evidence in the record. Officer Mitchell has consistently stated he did not see Petitioner
discard the weapon. Record 98, 104.
Petitioner alleges he had dropped the weapon,
threw up his hands and begun to run at the time of the
first shot. However, as noted in both the trial court’s
order and the Fifth Circuit opinion, this claim is directly contradicted by the video evidence and by Petitioner’s own testimony. Record 274, 322-323, 374, 400.
Petitioner repeatedly asserts and implies the
three officers on scene saw Petitioner discard the
weapon into the car beside him. This is simply not supported by the evidence which directly contradicts that
assertion. Record 98, 104, 454, 615.
------------------------------------------------------------------

SUMMARY OF THE ARGUMENT
Despite Petitioner’s claims of a split of authority
in the lower courts, thereby requiring review by this
Court, there is no split on authority when it comes to
Graham. Graham v. Connor, 490 U.S. 386 (1989). The

14
courts, and specifically the courts in the cases cited by
Petitioner, are consistently applying the standard set
forth in Graham and looking at all the factors and circumstances with which the officers are presented in
determining the application of qualified immunity.
Simply because two officers on scene react differently,
it does not necessarily follow that one has acted unreasonably. Stated differently, the fact that one officer on
scene uses deadly force and another does not, does not
mean the officer who used deadly force necessarily
acted unreasonably. This is because different officers
may have different vantage points, different perceptions and may see or hear things the other officers did
not. The courts are required to look at the totality of
the circumstances and that is what the lower courts
have done, including the trial court and Fifth Circuit
on this case.
------------------------------------------------------------------

ARGUMENT
Qualified immunity protects government officials
from civil liability if the acts were objectively reasonable in light of then clearly established law. Harlow v.
Fitzgerald, 457 U.S. 800, 818 (1982). A defendant’s acts
are held to be objectively reasonable unless ALL reasonable officials, acting under the circumstances presented to the defendant, would have then known the
conduct violated the Constitution or a federal statute.
Anderson v. Creighton, 483 U.S. 635, 640 (1987). Under
Graham, “[A]ll claims that law enforcement officers
have used excessive force—deadly or not—in the

15
course of an arrest, investigatory stop, or other ‘seizure’
of a free citizen should be analyzed under the Fourth
Amendment and its ‘reasonableness’ standard.…” Graham v. Connor, 490 U.S. 386, 396 (1989). The reasonableness of the force is judged from the perspective of a
reasonable officer at the scene, rather than with the
20/20 vision of hindsight. Id. at 396. The court assesses
the reasonableness with an “allowance for the fact that
police officers are often forced to make split-second
judgments—in circumstances that are tense, uncertain, and rapidly evolving—about the amount of force
that is necessary in a particular situation.” Id. at 397.
The proper application of reasonableness under the
Fourth Amendment “requires careful attention to the
facts and circumstances of each particular case, including the severity of the crime at issue, whether the suspect poses an immediate threat to the safety of the
officers or others, or whether he is actively resisting
arrest or attempting to evade arrest by flight.” Id. at
396. The defense of qualified immunity must be assessed in the context of what the officer knew at the
time he acted, not on facts discovered subsequently.
See Graham v. Connor, 490 U.S. 386 (1989).
Petitioner attempts to portray a conflict among the
lower courts in the applicability of Graham. However,
in each of the cases cited by Petitioner, the courts noted
the factors to consider from Graham and applied those
to the facts at issue. It seems Petitioner is asking this
Court to hold that when multiple officers are on scene
and some officers use force while others do not, there
should be a bright line rule that the officers who used

16
force acted unreasonably. Such a holding would completely abrogate Graham and would create extremely
difficult situations for officers making split second decisions. It has never been the law that officers on scene
must come to a consensus with one another before using force. The situations with which officers are faced
typically do not allow for that.
Petitioner argues that, if the lower courts do not
consider the actions of other officers on scene, they are
misapplying Graham and qualified immunity can
never be overcome. However, in Young, two officers
were on scene and only one shot the plaintiff. Young v.
District of Columbia, 322 F.Supp.3d 26 (D.D.C. 2018).
The court did not consider why the one officer did not
shoot and still found the officer who utilized force was
not entitled to qualified immunity. Id. The court in
Diaz likewise did not consider the other officers’ actions and still denied qualified immunity for the officer
who used force. Diaz v. Salazar, 924 F.Supp. 1088
(D.N.M. 1996).
In Clem, two officers were on scene and only one
shot the plaintiff. The court did discuss the other officer’s actions and found the officer who utilized force
was not entitled to qualified immunity. Clem v. Cty. of
Fairfax, 150 F.Supp.2d 888 (E.D.Va. 2001). In A.D., the
court considered the actions of all officers on scene and
denied qualified immunity for the officer who used
force. A.D. v. California Hwy. Patrol, No. C 07-5483 SI,
2009 WL 733872 (N.D.Cal. March 17, 2009).

17
In Santana, there were two officers on scene and
one shot the plaintiff. The court looked at both officers’
actions, noted they had different vantage points at the
time of the use of force and granted qualified immunity. Santana v. City of Hartford, 283 F.Supp.2d 720
(D.Conn. 2003). In Remillard, two officers were on scene
but only one was present when the plaintiff was shot.
Remillard v. City of Egg Harbor City, 424 F.Supp.2d
766 (D.N.J. 2006). Thus, it would have been of no benefit to discuss what the second officer did because he
was in a completely different situation than the officer
who used force. Id. The court denied qualified immunity. Id. In Kelley, the court looked at the actions of 16
officers who were on scene. Two officers fired shots. In
analyzing how the different officers responded, the
court noted the different viewpoints for the various officers and granted qualified immunity for the two officers who used force. Kelley v. O’Malley, 328 F.Supp.3d
447 (W.D.Pa. 2018). Under all of the cases cited by Petitioner, the courts looked at the totality of the circumstances and analyzed the factors set forth in Graham,
in conjunction with the specific facts of the case. Such
application of Graham by the lower courts did not, as
Petitioner argues, result in an across-the-board granting of qualified immunity for the officers.
Petitioner is asking the Court to hold that when
multiple officers are on scene, they must all act identically for their actions to be reasonable. The trial court
and the Fifth Circuit refused to do so, following the
holding from Graham. While the actions of the other
officers on scene may be considered, they should be

18
considered within the totality of the circumstances.
Despite Petitioner’s claim to the contrary, the Fifth Circuit did analyze what Sergeant Billingsley did and did
not do in conjunction with all the other circumstances
Officer Mitchell faced. In analyzing Sergeant Mitchell’s actions, the Fifth Circuit noted he and Officer
Mitchell had different positions. This is fully supported
by the evidence presented.
Likewise, the trial court looked specifically at all
of the officers’ versions of events. The district court
noted that each officer present thought Petitioner was
very much a threat and each of them feared for their
lives when they saw he possessed a gun. Additionally,
the trial court noted, all officers stated the events occurred rapidly and once the gun was observed, each
took action to guard their safety and the safety of the
occupants in the vehicle beside Petitioner. The trial
court looked at the officers’ actions in conjunction with
the other circumstances the officers faced, including
the severity of the crime, whether the suspect posed an
immediate threat to the safety of the officers or others
and whether the suspect was actively resisting arrest
or attempting to evade arrest by flight, and found Officer Mitchell acted reasonably. This is directly in line
with the test set forth in Graham and followed consistently by the lower courts.
The trial court specifically looked at Officer Mitchell’s two statements to determine if Petitioner’s argument was true that he had changed his testimony. The
court noted both statements said that Officer Mitchell
saw Petitioner draw the gun from his waistband and

19
he believed Petitioner was still armed when he shot
him and thus, the statements were consistent. The
trial court also noted the video evidence clearly shows
Petitioner did not run from the officers and was not
shot while running away as he attempts to claim. Further, the video does not clearly show Petitioner disarming himself in such a manner as to objectively remove
any threat the officers might have perceived. In further
analyzing each of the officers’ actions, the court stated,
“the officers all noted that [Petitioner] had a gun and
feared for their safety; each of the three officers began
evasive positioning to remove themselves from the interior of the car and prevent the possibility of being
shot in the vehicle; there is not evidence that any of the
officers believed [Petitioner] was unarmed when shots
were fired.” Contrary to Petitioner’s claims, the Fifth
Circuit and the trial court here considered what the
other officers on scene perceived and found Officer
Mitchell acted reasonably.
The Fifth Circuit and the district court properly
used the Graham standard and applied qualified immunity for Officer Mitchell. The ruling was in line with
this Court’s prior decisions. In Kisela, this Court noted
the officer believed the armed woman was a threat and
had “mere seconds” to assess the danger. Qualified immunity applied. Kisela v. Hughes, 138 S.Ct. 1148, 200
L.Ed.2d 449 (2018). Here, Officer Mitchell reasonably
believed Petitioner posed a threat of serious harm to
himself or others. Officer Mitchell knew Petitioner to
be an armed and violent felon. He knew Petitioner had
previously fled from law enforcement endangering

20
both the public and law enforcement officers. On the
date of the incident, Officer Mitchell was briefed that
Petitioner was armed and dangerous. Knowing all of
these things, Officer Mitchell was tasked with taking
Petitioner safely into custody. As the officers approached
to do that, Petitioner pulled a weapon on the officers.
Petitioner has been unequivocal that he knew it was
officers approaching and he continued to pull the gun
out. Despite knowing it was officers and despite the
cries of “Police!”, Petitioner never put his hands up and
did not attempt to flee. This is shown in the video evidence.
Officer Mitchell’s fear was mirrored in both Sergeant Billingsley and Investigator Merritt. Investigator Merritt was unable to gain a line of sight to fire his
weapon because Officer Mitchell was blocking his shot.
Similarly, Sergeant Billingsley considered discharging
his firearm from inside the vehicle, but decided to exit
first so he would not be a stationary target. Sergeant
Billingsley struggled with his door which led to Officer
Mitchell being the first officer to successfully exit the
vehicle and confront Petitioner. The other officers’ testimony demonstrates a genuine fear by the officers for
their lives and establishes that it was reasonable for
Officer Mitchell to respond to the threat with deadly
force. Because Officer Mitchell, Sergeant Billingsley
and Investigator Merritt all perceived an immediate
threat to themselves and others around and had only
seconds to respond, Officer Mitchell’s use of force was
reasonable.
------------------------------------------------------------------

21
CONCLUSION
There is no split in authority as alleged by Petitioner and the lower courts are properly applying the
standard for qualified immunity as set forth in Graham. It would be an abrogation of Graham and would
do away with the objectively reasonable test to adopt
the hard line rule suggested by Petitioner–that if multiple officers are on scene and one officer does not use
force, any officer who did use force would have acted
unreasonably and qualified immunity would be denied.
Here, Officer Mitchell and the other officers on scene
all encountered an armed Petitioner. They each feared
for their safety and took the necessary steps to get to
the best tactical position to protect themselves and the
others in the area. Because of their different positions
in the vehicle, each had a different view point. Based
on the circumstances presented, Officer Mitchell feared
for his safety, the safety of the officers with him and
the safety of the occupants of the vehicle beside Petitioner and utilized force. The other officers with him
had the same fear but did not have the line-of-sight
to use force. When viewed under Graham, Officer

22
Mitchell acted as a reasonable officer would have and
thus, was entitled to qualified immunity.
Respectfully submitted,
DAVID KERBY
(Counsel of Record)
CAMIE WADE
Kerby & Wade, P.C.
P.O. Box 65150
Lubbock, Texas 79464
Telephone: (806) 793-7600
Facsimile: (806) 793-6882
Email: dkerby@ttlawyers.com
Email: cwade@ttlawyers.com
Counsel for Respondent
Billy Mitchell, in his
Individual Capacity

